Case No. 20-__

In The

Supreme Court of the United States
ANNA VALENTINE, Warden
Petitioner
v.
JOHNNY PHILLIPS
Respondent
On Petition for Writ of Certiorari to the United
States Court Of Appeals for the Sixth Circuit
Case No. 18-6184

PROOF OF SERVICE

The foregoing Petition for Writ of Certiorari and Appendix was filed
electronically this 5th day of March, 2021 and also was mailed to the Clerk of this
Court.
Further, I, Courtney J. Hightower, a member of the Bar of this Court, hereby
certify that on the 5th day of March, 2021, a copy of this Petition for Writ of Certiorari
and Appendix was mailed via United States Postal Service, postage prepaid, to Hon.
Ryan M. Chabot, Counsel for Respondent, Wilmer Cutler Pickering Hale and Dorr
1

LLP, 250 Greenwich Street, 7 World Trade Center, New York, NY 10007; Hon. Daniel
Crump, Wilmer Cutler Pickering Hale and Dorr LLP, 350 South Grand Avenue, Suite
2100, Los Angeles, CA 90071.
/s/Courtney J. Hightower_
Courtney J. Hightower
Assistant Attorney General
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive
Frankfort, Kentucky 40601
(502) 696-5342
Counsel for Petitioner

2

